Department of Health and Human Services

        OFFICE OF

    NSPECTOR GENERAL





 MEDICAL ASSISTANCE FACILITIES




 A DEMONSTRATION PROGRAM TO PROVIDE
   ACCESS TO HEALTH CARE IN FRONTIER
             COMMUNITIES




                JULY 1993

                        OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Sefices’ (HHS)
programs as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by three OIG operating components: the Office of Audit Services, the
Office of Investigations, and the Office of Evaluation and Inspections. The OIG also informs the
Secretary of HHS of program and management problems and recommends courses to correct
them.

                            OFFICE OF AUDIT SERVICES

The OIGS Office of Audit Services (OAS) provides all auditing services for HHS, either by
conducting audits with its own audit resources or by overseeing audit work done by others.
Audits examine the performance of HHS programs and/or its grantees and contractors in carrying
out their respective responsibilities and are intended to provide independent assessments of HHS
programs and operations in order to reduce waste, abuse, and mismanagement and to promote
economy and efficiency throughout the Department.

                            OFFICE OF INVESTIGATIONS

The OIGS Office of Investigations (01) conducts criminal, civil, and administrative investigations
of allegations of wrongdoing in HHS programs or to HHS beneficiaries and of unjust enrichment
by providers. The investigative efforts of 01 lead to criminal convictions, administrative sanctions,
or civil money penalties. The 01 also oversees State Medicaid fraud control units which
investigate and prosecute fraud and patient abuse in the Medicaid program.

                 OFFICE OF EVALUATION AND INSPECTIONS

The OIGS Office of Evaluation and Inspections (OEI) conducts short-term management and
program evaluations (called inspections) that focus on issues of concern to the Department, the
Congress, and the public. The findings and recommendations contained in these inspection
reports generate rapid, accurate, and up-to-date information on the efficiency, vulnerability, and
effectiveness of departmental programs.

OEI’S Atlanta Regional Office staff prepared this report under the direction of Jesse J. Flowers,
Regional Inspector General and Christopher Koehler, Deputy Regional Inspector General.
Principal OEI staff included:

Atlanta Region                                                                Headquarters

Maureen Wilce, Project Leader                                                 Cathaleen Ahern

Ron Kalil

Paula Bowker

Ruth Reiser


For additional copies of this report, please contact the Atlanta Regional Office at 404-331-4108.

Department of Health and Human Services

        OFFICE OF

    NSPECTOR GENERAL





 MEDICAL ASSISTANCE FACILITIES



 A DEMONSTRATION PROGRAM TO PROVIDE
   ACCESS TO HEALTH CARE IN FRONTIER
             COMMUNITIES




           JULY 1993   OEI-04-92-00731

              EXECUTIVE                           SUMMARY

PURPOSE

To describe the Health Care Financing Administration’s Medical Assistance Facility
demonstration program and its effect on access to inpatient health care in frontier
Montana.

BACKGROUND

Concerned that hospitals closing in frontier Montana left residents without access to
basic health care, the Montana State legislature authorized a Medical Assistance
Facility (MAF) program in 1987. The program was designed to provide continued
access to health care by converting a full-service hospital into a low-intensity, short-stay
health care service center. Montana law allows MAFs to provide up to 96 hours of
inpatient care. MAFs must be located more than 35 road miles from the nearest
hospital or be located in a county with a population density of no more than 6
residents per square mile.

Montana revised its licensure rules to reduce hospital staffing requirements and
adapted other existing standards to the MAF concept. MAFs are allowed to offer any
health service for which it is adequately equipped and staffed to perform.

Montana’s MAF program received a Health Care Financing Administration (HCFA)
demonstration grant to fund planning and program development activities. Also,
HCFA authorized a waiver of over forty hospital Conditions of Participation so that
MAFs could receive Medicare reimbursement under Medicare Part A on a cost basis.
Current HCFA waivers and grant for the MAF program are scheduled to end in 1993.

SCOPE AND METHODOLOGY

In December of 1992, we visited and reviewed MAF operations at each of four
Montana communities that had converted formerly closed hospitals into a MAF. The
Ws     are located in Circle, Jordan, Terry and Ekalaka. We also reviewed relevant
State and Federal legislation, regulations, setice records, and other appropriate
documentation.    We interviewed program officials in Montana, HCFA, and each of
the four Montana communities.

FINDINGS

HCFAk MHF &rnonstrationprogramprovides access to inpatientcare in jiorvier areas
without a hospital

MAFs provide up to 96 hours - or 4 days - of limited inpatient services in four frontier
Montana communities. The average length of stay is 2.4 days.



                                              i
MAFs also provide inpatient care primarily to elderly members of the communities --
72 percent of MAF patients are over 65 years of age.

Finally, MAFs provide 24-hour emergency health care services and outpatient care to
the four communities.

M4.Fs facilitate a heukihcare network in jiontier areas

MAFs attract other service providers to the facility. For example, each MAF offers
dental services once a week. Special care providers such as physical therapists and
mobile mammography units use the MAF as a center to offer care to the community.

MAFs also serve as a hub for a referral network, referring patients to hospitals for
advanced care, nursing homes and home health services.

Flexibility in sta~g   is *al   to success of M4Es

Non-physicians, such as a physician assistant, admit patients and provide medical care
in MAFs. They do so under the supervision of a physician who can be in a different
town. Each MAF provides service within the skill level of its employed medical
professionals. Also, when a MAF has no patients, it may close. The flexibility allowed
in MAFs help attract and retain medical professionals in frontier areas.

M41?s appar to be cost e@ient

For these four frontier communities, MAFs appear to be cost efficient due to more
efficient use of staff and less operating cost when compared to a small underused
frontier hospital. Further, MAFs maybe located closer to patients, which encourages
cost efficient preventive health care and reduces patient transportation cost.

CONCLUSION

MAFs hold promise as a viable alternative for frontier community health care. The
MAF program is a practical and flexible way to provide access to basic inpatient and
emergency medical care in frontier areas -- particularly those that are struggling to
keep a failing hospital open, and those that do not have adequate local health care.
The results of this review and HCFA’S upcoming formal evaluation can be used jointly
by HCFA in determining whether to (1) continue the MAF concept in Montana, and
(2) apply it in additional frontier communities.




                                             ii
                     TABLE                     OF CONTENTS


                                                                                                                    PAGE


EXECUTIVE        SUMMARY


INTRODUCTION            . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ..””     oo”o”oo”oo            1


FINDINGS       . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...-.......””-”””.””””                        5


   Accessing Care         . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .. ”””” ”””” ””””.5


   Facilitating Networks          . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ..””      ”””.9


   Staffing Flexibility       . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...”””.”
        10

   Cost Efficiencies         . . . . . . . . . . . . . . . . . . . . . . . . ..............””o””-””
                     11

CONCLUSION           . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...”.”
     12

APPENDICES


lkChronology       OnMAFDevelopment                      . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ..A-l


B: Methodology         . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ..””    ”””” oB-l

                         INTRODUCTION


PURPOSE

To describe Health Care Financing Administration’s Medical Assistance Facility
demonstration program and its effect on access to inpatient health care in frontier
Montana.

BACKGROUND

Hospital Closures In Rural Areas

Generally, closure of a rural hospital had little effect on access to medical care for
most people. The Office of Inspector General (OIG) reported that 193 rural hospitals
closed over a five year period -- 1987 through 1991. In most instances, another
hospital was available within 20 miles of a hospital that closed. However, some
community residents such as those in frontier communities have difficulty in accessing
health care when their hospital closes.

Frontier areas are sparsely populated, and are located in areas with a high need for

stand-by care. Typically, frontier communities’ populations include a high percentage

of elderly people whose need for medical care may be greater than that for a working-

age person. Also, the limited mobility of elderly people makes access to health care in

remote areas difficult. Further, the working age population of frontier communities

are usually engaged in high risk occupations such as farming and mining. Finally,

tourists to some frontier communities often engage in dangerous activities such as rock

climbing. When a frontier community does not have a local hospital, needed

emergency medical care and acute inpatient sewices are often much further away than

20 miles.


When referring to hospital care, frontier communities are defined as counties with

fewer than 6 persons per square mile. Although 46 percent of the land area in the

United States meets this definition, less than 1 percent of the population lives in

frontier areas. Nationally, 11 percent of rural hospitals are in frontier areas.


Medical Assistance Facilities In Frontier Montana


One option to a local hospital for health care is a Medical Assistance Facility (MAF).

MAFs offer limited inpatient care and a variety of outpatient and emergency services.

In the early 1980s, realizing many hospitals in Montana were in danger of closing, the

governor of Montana created a task force to study the future of rural hospitals. This

task force included State health care officials and representatives from the Montana

Hospital Association. The task force concluded the following.


   . Physicians may not always be willing and available to work in remote locations.


                                            1
  .	 Low utilization in some small hospitals does not warrant full services being
     offered.

  .	 Conditions of Participation, required for hospitals to receive Medicare payment,
     are too difficult for some communities to fulfill.

  .	 Communities and the State would have to continue pouring money into hospitals
     to keep them open, using visiting physicians, exhausting nursing staff, perpetually
     recruiting, and diverting funds from patient care.

  �	   Communities need access to primary and emergency care, which could be
       provided by something other than a hospital.

By 1987, some small rural hospitals in Montana began closing and residents in those
communities were left without basic health care services. At that time, Montana’s
State Legislature referred back to the task force recommendations and authorized a
MAF program.

The Montana Legislature designed the MAF program to provide continued access to
health care by converting what once was a full-service hospital into a low-intensity,
short-stay health care service center. Montana law allowed MAFs to provide up to 96
hours (4 days) of inpatient care. MAFs must be located more than 35 road miles
from the nearest hospital or be located in a county with a population density of no
more than 6 residents per square mile.

The Montana Hospital Association, working with State health care officials, drafted
licensure rules for the MAFs. The rules allow care in MAFs to be provided by mid-
level practitioners, i.e., physician assistants or nurse practitioners, under the
supervision of a medical director, who is a physician. The medical director may be
located in another town. Only one MAF staff member must be on duty or on call at
all times. The rules also allow MAFs to offer any services provided that the medical
director determines the staff has the expertise and the facility has adequate
equipment. However, patients with serious illnesses or injuries are stabilized at a
MAF and transported to full-service hospitals. In 1989, to allow non-physicians to
operate with such independence, the Montana Legislature expanded the role of non-
physician providers under its State law.

When possible, the Montana Hospital Association and State health care officials
adapted existing standards to MAFs instead of drafting an entirely new set of licensing
rules. For example, the lab requirements at MAFs are the same as the Health Care
Financing Administration (HCFA) requirements for a Rural Heath Clinic (RHC).
Further, staffing requirements followed the standards existing at nursing homes.




                                             2

HCFA’S Demonstration    Project

The State authorized the Montana Hospital Research and Education Foundation
(MHREF), a non-profit organization affiliated with the Montana Hospital Association,
tohelpimplement    the MAF program. To finance plarming of MAFs, MHREF
applied for and received a HCFA demonstration grant.

MHREF sent information and invitations to 23 small rural Montana hospitals to
participate in the demonstration project. Nine hospitals in Montana agreed to
participate in the demonstration, three as MAFs (Jordan, Circle and Ekalaka) and six
others as part of a control group. Residents of the three demonstration sites were
ve~ receptive to the MAF concept, according to research done by the University of
North Dakota.

To be part of the demonstration, each community was required to develop a plan for
what the MAP would do and how it would be supported. The MHREF director
provided technical assistance to each of the communities, but each community applied
to HCFA and to the State health department to receive a Certificate of Need. The
demonstration allowed for adding MAF sites that were not included in the original
program. Other communities desiring a MAF had to follow the same application
process. Terry, Montana did apply, and in January of 1992 became part of the MAF
demonstration.   On December 31, 1992, a fifth Montana community, Culbertson,
received a Medicare provider number as a MAF, but this MAF was not included in
our evaluation.

HCFA waived numerous hospital requirements so that MAFs could receive Medicare
reimbursement.     Over forty Conditions of Participation had to be waived to allow
reimbursement under Medicare Part ~ the part of Medicare which pays for hospital
care. Significantly, HCFA waived many hospital staffing requirements and allowed the
Peer Review Organization to have a consultative role in the MAFs.

In 1990, HCFA authorized a cost-based reimbursement system for MAFs. Therefore,
MAFs became the first limited-service, acute-care facilities funded for reimbursement.
HCFA also agreed to allow Medicaid payments based on the State’s law. The HCFA
waivers and grant for the MAF program are scheduled to end in 1993.

HCFA selected Abt and Associates to evaluate the demonstration. Ekalaka, Circle
and Jordan and the six comparison sites are being studied in a two-part evaluation.
The first part, released in 1992, described and compared the communities in detail. It
also assessed the activities involved in beginning operation of the three MAFs. The
second phase of the evaluation will be released in 1993 and will assess the operation
of the MAFs.

A chronology of events in the development    of the Medical Assistance Facility program
is presented in Appendix A.



                                            3

SCOPE AND METHODOLOGY

In December of 1992, we visited and reviewed MAF operations in each of the
communities -- Circle, Jordan, Terry and Ekalaka. At each community, we
interviewed the MAF administrator, health care provider(s), and community leaders.
We also visited and interviewed the referral hospital staff for two of the MAFs. We
intemiewed Montana program officials and HCFA staff, by phone.

Finally, we reviewed relevant State and Federal legislation and regulations, and
previous evaluations and cost information submitted to HCFA.

We conducted this inspection in accordance with the Quality Standards for Inspections
issued by the President’s Council on Integrity and Efficiency.

Appendix B describes our methodology in further detail.




                                           4

                                FINDINGS


HCFA’S MAF DEMONSTRATION PROGRAM PROVIDES ACCESS TO
NEEDED INPATIENT CARE IN FRONTIER AREAS WITHOUT A HOSPITAL

MAFs Pruvide Limited Inpatient Acute Care In Frontier Montana Communities

The MAF concept allowed limited-service, inpatient, acute care in eastern Montana to
be provided locally. At each of the four MAP Montana communities, access to
inpatient care was considered essential because of the long distances and inaccessibility
of other health care providers. We briefly describe each of the four MAFs we visited
below.

       Circle, Montana W         The McCone County MAF and Nursing Home opened
       first, in December 1990. Circle’s hospital had closed in July of 1990. Circle is a
       town of 450 residents, but the MAF provides access to health care to a county
       of 1500 people. The nearest hospital, which provides administrative services for
       the MAF, is 45 miles away. The MAF services are currently provided at two
       locations. The MAF provides outpatient care, emergency care, x-ray and
       laboratory services at the former hospital facility in Circle. It provides inpatient
       care at a nursing home a few miles away. Currently the Circle community is
       expanding the nursing home to combine all services into one facility. One
       doctor, who is nearing retirement, continues to practice at the MAF, along with
       a physician assistant.

       Ekak@ Montana U              The Dahl Memorial MAF and Nursing Home serves
       the 600 residents of Ekalaka and many of the 1000 other people living in Carter
       County. When Ekalaka’s 15-bed hospital closed in 1988, the nearest hospital
       care was 35 miles due north. Yet road conditions occasionally made the 35
       mile trip to the hospital for inpatient care impossible. Following the hospital’s
       closure, a RHC opened. The community pursued the MAF option and opened
       it in June 1991. One physician assistant provides care at the ten-bed inpatient
       facility. The MAF also offers county public health services and the only
       pharmacy in the county. Ekalaka is pursuing a Federal grant to extend care to
       the south end of the county, via a weekly clinic.

       Jor@     Montana H        The Garfield County Health Center serves one of the
       most isolated places in the continental United States. The nearest hospital is
       85 miles away. The town of Jordan has about 500 people with approximately
       1100 others living within the county. Garfield County is about the size of
       Connecticut. The last doctor ceased practicing in town in 1986 and the
       Garfield County Memorial Hospital closed. It was the absence of health care
       options in the community that inspired the local State representative to
       introduce the MAF concept to the Legislature in 1987. A physician assistant
       was hired and plans were made to open a two-bed MAF, which is collocated


                                             5
      with a nursing home. In this instance, the community faced delays in opening
      the MAF. They had difficulties financing renovations to create the MAF.
      Further, the insurer who had provided the former hospital with malpractice
      insurance denied coverage to the MAF. Jordan overcame these difficulties and
      the MAF opened August of 1991.

      Terry, Montana MAE The Prairie Community MAF and Nursing Home was
      the first MAF to open which was not one of the original three demonstration
      communities. This MAF serves Terry’s 900 residents and many of the 900
      other residents of Prairie County. Terry was also the first community to plan
      on becoming a MAF before its hospital closed. Prairie Community Hospital
      was failing due to low occupancy and difficulty in retaining physicians. The
      hospital closed in mid-1991, when the last physician ceased practicing in the
      community. As soon as it was certified, in January 1992, the MAF opened in
      the former hospital building. This two-bed MAF is located 37 miles from the
      nearest hospital, and is staffed by a physician assistant.

Inpatient Stays At MAFs Averaged 2.4 Days

The chart below shows the lengths of inpatient stays in all MAFs since each of their
opening until December of 1992. State law limits inpatient acute care in MAFs to 96
hours. Inpatient stays at the four community hospitals, prior to closure, also averaged
less than 96 hours.


                          Length of Stay By MAF Admissions
                    Length of Stay               Number of Admissions
                        1 day                           54 (37%)
                        2 days                          23 (16%)
                        3 days                          31 (21%)
                        4 days                          39 (26%)
                  Average:   2.4 days             147 Total Admissions




                                            6

MAFs Provide Care For A Variety Of Illnesses and Injuries

Within the four-day limit on inpatient care, patients can receive care for a variety of
illnesses. The chart below shows the percentage of patients receiving medical services
by type of illnesses or injuries.

                                                                            I�

                        Reasons for Inpatient Admissions to MAFs
                    Respiratory Illnesses
             24%
                    Gastrointestinal Diseases
         17%
                    Trauma
                            1370
                    Neurological Disorders
             8%
                    Previously-diagnosed Cancer
        7%
                    Cardiovascular Disease
             5%
                    Urinary Disorders
                  4%
                    Metabolic Diseases
                 4?40
                    Psychiatric Disorders
              4%
                    Infections
                         3%
                    Other Illnesses
                   11%

Although MAFs are not prohibited from performing surgeries, none of the four MAFs
offer a;y surgery. The physician at the C;rcle ~-     has chosen not to continue his
surgical practice. Physician assistants at the four MAFs are not trained to perform
surgery independently. Patients needing surgeries are referred to other facilities.

MAFs Provide Inpatient Care Primarily To The Elderly

The MAPs provide inpatient semices primarily to elderly members of the
communities. The following chart shows basic demographic information on patients
admitted to the four Montana MAFs.


                                    MAF Patient Profile

           Sex:                       Age:                Payment Source:

  Male            42%          Under 65      28%          Medicare      72%
  Female          58%          Over 65       72%          Medicaid       5%
                                                          Other         23V0



MAF Guidelines Are Designed To Assure That Admissions Are Appropriate

 MAFs provide treatment within the scope of the services offered. To assure that only
 appropriate illnesses are treated, MAFs follow strict procedural requirements. The
 physician or physician assistant at a MAF must notify the Peer Review Organization


                                             7
(PRO) before any patient is admitted. The                 PATIENT FLOW PROCESS
medical professional on duty telephones the
PRO and describes a patient’s condition to a
nurse or a physician at the PRO. Together
they decide (1) if the patient requires
treatment which is within the authorized
scope of services the MAP is capable of
providing, and (2) if the proposed treatment
is medically necessary. Further, if a physician                   Goes to MAF
assistant is admitting a patient, the MAF’s
medical director, who is a physician, is also                     PatientNeeds
consulted by telephone. The medical director                       Asswsedby
is sometimes called by the PRO to discuss                        PhysicianAssistant
cases as well. The consultation with the PRO
offers a second opinion on each case and
helps assure that the MAF’s later insurance                      If NecessaryDoctor
claim will not be denied upon review.                                is consulted
Although this is not the customaxy role of a                             +�
PRO, HCFA allowed it for the MAF                                    PRO Approves
                                                                     Admission
 demonstration.
                                                                   Patient‘Admitted
The chart on the right shows what happens                               to lvlAF
when a patient corn-es to a MAF.    --
                                                                         J

                                                                 PatientReceivesup
After admission, medical professionals at                       to% Hours of Care
MAFs continue communication with other                                    +
medical professionals. To illustrate, the                          MAF    and PRO
                                                                    Plan Dwharge
physician or physician assistant at a MAF
calls the PRO to consult on the                                           I
appropriateness of a treatment plan. In                       .4=—————
                                                         PatkntStabii          Patient Treated
routine cases the PRO is again called                                           and Released
                                                          and Transferred
between 48 and 72 hours into the patient’s
stay to consult on discharge planning in
accordance with the rules of the program. In
more unusual cases, the medical director, the P 3, and specialists in other hospitals
will all be consulted. MAFs routinely send medical test results to other hospitals to
confirm that patients are being treated correctly. In this way the PRO monitors the
care of all MAF patients. Although there was some confusion concerning the skill
levels of the physician assistants for the first few cases, the four MAFs report no
problems working with the PRO.

MAFs Also Provide Emergency And Outpatient Health Care Services To Their
Communities

Because of the institutional presence of a MAF in the four Montana communities,
other health services are available. In addition to inpatient medical care, MAFs


                                                8
provide a variety of emergency health care      services. All MAFs offer 24-hour
emergency services, and all four MAFs use       the former hospital emergency room to
treat patients. MAFs stabilize and transfer     patients requiring more advanced care,
such as patients in cardiac arrest or victims   of life-threatening accidents. MAFs also
offer basic laboratory and x-ray services.

Although not required to do so under Montana law, the four MAFs offer outpatient
care. In the MAFs, the former hospital emergency room is also used for outpatient
care. Further, the physician at the Circle MAF and physician assistants at all MAFs
provided general medical selvices, including outpatient care, through their general
practice in the community. The physician assistants at each of the MAFs told us that
through the MAF and their private practices, they treat as many as one hundred
patients a week on an outpatient basis. Nurses at the four MAFs also provide public
health services and home health care in the community.

MAFS FACILITATE        A HEALTH CARE NETWORK                    IN FRONTIER     AREAS

All four MAFs have encouraged other services to locate at the facility. The former
hospital space is used for other health services which would not be available to the
community otherwise. In Circle, the new building which is being constructed will
provide space for additional services. Each of the four MAFs offers dental services
one day a week. Special care service providers such as physical therapists and mobile
mammography units are allowed to use the facilities to provide care to the community
on a visiting basis. The Montana Mental Health Service provides counseling services
to the community from the MAF facility. Public health offices are also located in the
centers. In Ekalaka, the physician assistant and staff at the MAF provide public
health services through a contract with the community. Also, Ekalaka’s pharmacy,
which was threatened with closure, is now operated out of the MAF center.

For services which the MAF cannot provide, all four of the MAFs have formal referral
agreements with transfer facilities. For example, if a patient comes to the MAF and
needs to be transferred for more sophisticated care than the MAF is able to offer,
medical professionals at the MAF stabilize the patient and obtain emergency
ambulance services for transfer to needed care. Each MAF has formalized
agreements with several hospitals. All MAFs have agreements with the nearest
hospitals as well as hospitals in Billings, Montana, over a hundred miles away.
Therefore, MAFs transfer patients directly to the hospital that offers the level of care
the patients need. If several hospitals offer the same level of care, MAF staff respect
the patient’s choice. The MAF staff arranges transfers for a patient via road or fixed-
wing plane to hospitals offering the appropriate level of care. The four MAFs report
no problems transferring patients to other facilities.

Each of the four MAFs also has agreements            with nursing home facilities. Local
nursing homes rely on the MAFs for health           care services for their elderly patients.
Each of the four MAFs is collocated with a          nursing home. By collocating, MAFs and
nursing homes are able to share staff. This         arrangement allows nurses working at the


                                                9
nursing home to also work at the MAF, maximizing efficiency. Shared staffing also
coordinates patient treatment.

Finally, MAFs contract with home health care providers to offer a referral network to
appropriate non-acute care. Because of the requirements to have referral agreements,
the boards of the MAFs have arranged for a full range of services to be available
through referrals to the community. For example, home health care services were not
available in Circle, before the MAF developed. Now the MAF contracts with a home
health agency in Wibeaux, Montana to provide services as needed.

FLEXIBILITY     IN STAFFING     IS CRITICAL     TO SUCCESS OF MAFS

MAFs Allow An Expanded Role For Non-physicians

Non-physician providers admit patients to the MAF. HCFA accepted Montana State
policies which expanded the role of physician assistants and nurse practitioners. This
meant that even though the four Montana communities were unable to recruit and
support a resident physician who could operate a hospital, they could still have
inpatient care available. In accordance with Montana rules, each MAF has a medical
director who is a physician. However, except for the Circle MAF, the medical
directors are located in a different town. The medical directors are required to visit a
MAF once a month to review patient charts, but in practice they visit more frequently
and are regularly consulted.

The medical directors are the sponsoring physicians for the physician assistants
working at the MAR, In accordance with the MAF rules, the sponsoring physicians
decide what services the physician assistants are allowed to perform, The physician
assistants at the four MAFs are highly experienced professionals. The medical
directors allow them to independently perform those services for which they are
trained.

MAFs Have Unique Staffing Requirements

MAFs have unique staffing arrangements because HCFA waived many staffing
requirements. MAFs are not staffed after regular working hours when no patients
have been admitted for inpatient care. Under the Medicare hospital Conditions of
Participation, registered nurses must always be on duty. This works in hospitals since
most hospitals always have patients. The MAFs, however, frequently have times when
no patients are under care. The MAFs, on average, have patients under care only
about 17 percent of operating days. When no patients have been admitted, MAF
medical staff do not have to be present, but are on-call.

When a patient has been admitted, the four MAFs provide 24-hour-a-day nursing
care. A registered nurse is on duty at least 8 hours a day, and licensed practical
nurses provide care at other times. The MAFs have an arrangement with the
collocated nursing homes to share nursing staff. As a result, nurses at the nursing


                                           10
home also monitor patients admitted to the MAF. The nursing home nurses also
cover the emergency care at the MAF until the on-call MAF medical staff arrive.

Because the medical professionals at the MAF are the only providers in the
communities, they are always “on-call” to provide emergency medical care. However,
MAFs have modified rules to ease the burden on the medical professionals. The
physician or non-physician provider must be within one hour of the MAF, rather than
actually in the facility, and a registered nurse must be within 20 minutes of the MAF.
Each MAP also has agreements with local ambulance semices that if the medical
professionals are not available for any reason, the patient will be transported directly
to another emergency care facility.

The Flexibility Of MAFs Attracts And Helps Retain Medical Professionals In Frontier
Areas

The MAFs, by virtue of being able to offer varied practice settings, are an attractive
worksite. Consequently, administrators told us they can recruit and retain staff more
easily. The physician assistants said they came to work specifically in a MAF because
they wanted an opportunity to practice more independently. Nurses told us that their
morale has increased because of the ability to practice inpatient and emergency skills.
Administrators told us that some staff members are choosing to obtain more training,
such as advanced degrees or specific skills to broaden their role at the MAF. For
example, in Ekalaka the physician assistant has already trained to perform x-rays.

Retention of staff allows the provider and patient to develop a trusting relationship.
An early opinion study by MHREF on the MAF concept showed that such a patient-
provider relationship is essential to the MAF’s success.

MAFS APPEAR TO BE COST EFFICIENT

Although data is limited, MAFs appear to be cost efficient for the four communities
when compared to a small underused frontier hospital. Community officials in the
four Montana communities told us that the MAFs have reduced costs. They noted
that under the M/U? concept they are able to use staff more efficiently and operate at
less cost than before their former hospital closed. Each community subsidizes the
MAFs with tax dollars. Community members see the efficiencies of the MAF as a
way to provide medical care without the high tax burden of their former hospital.
This is especially important as the tax base has declined in some communities. Also,
the four communities are finding that some of the money not spent on staffing and
maintaining a full-service hospital can be spent on staff training.

MAFs save transportation expenses for patients because they do not have to travel
great distances for care. The cost of and access to transportation are often problems
for elderly patients such as those treated in MAFs. The ability to treat and stabilize
patients locally in cases of emergency may also reduce ambulance and air ambulance
costs. Further, it allows provision of care faster.


                                            11
Critical to success of the MAFs was the waiver granted by HCFA which allowed
MAFs to receive cost based reimbursement rather than reimbursement under the
Diagnostic Related Groups (DRG) system that is used to pay for most Medicare
services at hospitals. Not enough data is available yet to measure average MAF costs
against comparable DRG payments; however, the costs could be lower. First, MAFs
employ fewer people. Second, MAFs can close when no patient is present. Third,
rules allow non-physicians and non-RNs to provide care which should lower staffing
costs. Fourth, cross-utilizing staff and services between the nursing facility and the
MAF reduces overhead and increases efficiency. Finally, the MAF, by specifically
limiting its services, may forgo expensive and little-used equipment that would also
increase costs.

Although not easily quantifiable, community officials said that MAFs financially benefit
the community in other ways. They said that if receiving medical care is convenient
and it is provided by familiar people in a familiar environment, people usually choose
to obtain care for an illness sooner. Treating an illness before a crisis occurs is better
for the patient and usually more cost-effective. Further, they said that before the
MAF, patients tended to (1) postpone care for an illness rather than travel long
distances for it, and (2) forgo follow-up and preventive care services.

CONCLUSION

The isolation of frontier communities can make access to health care difficult. Many
frontier communities cannot adequately support a hospital, but have a need for stand-
by inpatient and emergency care. Some communities may be going to extreme
measures to save underused hospitals because they know of no other way to retain
medical care.

MAFs hold promise as a viable alternative for frontier community health care. The
MAF program is a practical, flexible, and efficient way to provide local access to basic
inpatient, outpatient, and emergency care in frontier areas. Further, MAFs offer an
institutional presence which fosters other health care services, such as nursing homes,
pharmacy services and visiting health care services.

The results of this review and HCFA’S upcoming formal evaluation can be used jointly
by HCFA in determining whether to (1) continue with the MAF concept, and (2)
apply it in additional frontier communities.




                                            12

                            APPENDIX                     A


Chronology Showing Development Of The Me&i           Assistance Facility Program In Montana
Early 1980’s     Governor of Montana created a task force to examine rural health problems

December 1986 Garfield County Memorial Hospital in Jordan closed

Februa~ 1987	    Montana’s State Legislature authorized a Medical Assistance Facility (MAF)
                 program and Montana Hospital Research and Education Foundation
                 (MHREF), a non-profit organization affiliated with the Montana Hospital
                 Association, was authorized to help implement the MAF program

June 1987        Dahl Memorial Hospital in Ekalaka closed

June 1988        HCFA funded a planning and development demonstration grant

January 1989	    MHREF sent letters inviting small rural hospitals to participate in the
                 demonstration

February 1989	   Montana legislature expanded the role of non-physician providers under
                 State law, allowing them to prescribe medicines and to provide any service
                 their sponsoring physician authorizes

March 1989	      Nine hospitals in Montana agreed to participate in the demonstration, three
                 as MAFs (Jordan, Circle and Ekalaka) and six others as part of a control
                 group

April 1990       HCFA authorized a cost-based reimbursement system for MAFs

July 1990        McCone County Hospital in Circle closed

December 1990	 HCFA waived over forty Conditions of Participation so that MAFs could
                 receive Medicare reimbursements under Medicare Part A

December 1990 The first MAF in Circle opened

June 1991        MAF in Ekalaka opened

August 1991      Jordan’s MAF opened

January 1992     MN? in Terry opened

December 1992 Roosevelt Memorial HosDital in Culbertson converted to a MAF




                                            A -1

                            APPENDIX                    B


                                 METHoDomGY


To understand the Medical Assistance Facility (MAF) concept, we reviewed Federal
and State legislation and regulations. We interviewed Montana State officials and
Health Care Financing Administration (HCFA) staff to determine how the MAF
concept was created and what it is expected to accomplish.

To determine what factors led to implementation of the MAF concept, we interviewed
community leaders and health care professionals who were instrumental in converting
a former hospital into a MAF.

Using standardized interview guides, we focused interviews with community members,
health care professionals and State and HCFA staff on the following issues.

      Community concern about a hospital’s closing

      Conceptualization   and communication     of converting a former hospital into a


      Application for HCFA funding

      Establishing associations and protocols with other hospitals which will accept
      transfer patients

      Conversion of a physical facility to meet MAF requirements

       Change in the health care community necessary to accommodate        new
       arrangements created by a MAF

To determine what services are provided by MAFs in the four Montana communities
of Circle, Ekalaka, Jordan, and Terry, we reviewed legislation, regulations, service
records and correspondence files. We also reviewed the health care services
prescribed at each former hospital as recorded in HCFA’S Hospital Cost Reporting
Information System (HCRIS). We then compared those semices to the services
provided through the MAF concept. In this manner, we could identify services that
were formerly provided by the hospitals, but not provided by the MAFs.

To determine other health services available to a community and where they are
located, we interviewed health care providers and community leaders.




                                         B-1

To describe the health care network role of MAFs, we reviewed records, such as
referrals, and interviewed health care professionals in hospitals receiving transfer
patients.

To determine a community’s perspective on the adequacy and appropriateness of
MAF’s semices we interviewed health care professionals and community leaders in
each of the four Montana communities. We also determined their perspectives on
how standards and processes they followed affected implementation of the MAF
program. We interviewed State and HCFA staff to determine their perspectives on
successes of MAFs. We also gathered information on access to care issues from
Montana and national sources. Finally, we reviewed the first HCFA evaluation of the
MAFs.

To determine which services are used by residents in a community served by a MAF,
we used records and documents of both the former hospital and the MAF. We
supplemented this information with interviews with health care professionals.




                                           B-2

